OIG Investigative Reports, Mother/Daughter Team go to Jail for Embezzling Funds
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
June 28, 2004
Office of the United States Attorney
Western District of Louisiana
DONALD W. WASHINGTON
United States Attorney
United States Courthouse
800 Lafayette Street, Suite 2200
Lafayette, Louisiana  70501-7206
(337) 262-6618
Mother/Daughter Team go to Jail for Embezzling Funds
Lafayette,  Louisiana . . .Two women
found guilty by a federal trial jury in October 2003, of 1 count of conspiracy
and 14 counts of embezzling and failing to refund federal funds faced United
States District Judge Richard T. Haik for sentencing today, announced U.S.
Attorney Donald W. Washington and Patricia Van Gilder, Special Agent in Charge for the U.S. Department of Education, Office of Inspector General, Central Region.
PATRICIA FRASIER BEDFORD, age 56,
from Canton, North Carolina and MELISSA BEDFORD BLALOCK, age 35,
from Candler, North Carolina were each sentenced to 16 months imprisonment
to be followed by 3 years supervised release, the maximum allowed by federal
sentencing guidelines.   The defendants were each ordered to
pay $54,293 jointly and severally in restitution.  The defendants
were indicted in November 2001.  A two and a half week trial by jury
in October 2003, ended with the jury returning guilty verdicts on all counts.
U.S. Attorney Washington stated, "These
defendants received long prison terms for stealing funds owed to young
adults for their education.  The U.S. Department of Education provides
$63 billion a year of tax dollars to educate children and young adults.
Anyone who steals these funds will be aggressively prosecuted and incarcerated
for the longest period allowed by law."
Patricia Van Gilder, Special Agent in Charge
for the U.S. Department of Education, Office of Inspector General, Central
Region stated, "I am very pleased with the outcome of this investigation.
I'm hopeful that the sentences will send a message that this type of fraud
will not be tolerated."
PATRICIA BEDFORD owned and operated The
Louisiana Training Center, Inc. (LTC), a privately owned for-profit school,
which had two locations in Sulphur, Louisiana.  The vocational-technical
school offered cosmetology and health care courses.  BEDFORD's daughter,
MELISSA BEDFORD BLALOCK, was the Financial Aid Director and owned ten percent
of LTC.
The U.S. Department of Education (DOE)
is the federal agency that administers the programs that provide financial
aid to qualified students for their post-secondary education.  Title
IV of the Higher Education Act of 1965 provided federal financial aid for
students enrolled at eligible post-secondary schools.  BEDFORD, on
behalf of LTC, entered into an agreement with the U.S. Secretary of Education
on December 18, 1992, to participate in the Title IV programs.
All institutions participating in Title
IV programs are required to have annual audits.  However, LTC never
did a compliance audit during the entire time they were operating. LTC
ultimately lost its eligibility to participate in Title IV programs in
1997 and closed the school that same year.
Prior to closing the school, BEDFORD and
BLALOCK received financial aid funds on behalf of certain students that
exceeded the students' cost of attendance, which included tuition, books
and lab fees.  Federal law required that the defendants refund the
excess balance to the student, which the defendants sometimes failed to
do.  The defendants failed to always do this.  Further, several
students receiving financial aid dropped out of the school before completing
their course of study.  The defendants had already received full payment
from the U.S. Department of Education for the students' education.
The defendants failed to refund the U.S. Department of Education, as required
by law, any unused portion of the financial aid.   The defendants
embezzled and failed to refund at least $54,293.00.
Sentencing in federal court is governed
by the United States Sentencing Guidelines established by the United States
Congress and the United States Sentencing Commission.  Parole has
been abolished in the federal system.
This investigation was conducted by the
U.S. Department of Education.   The case was prosecuted by Assistant
United States Attorney Todd S. Clemons.
For further information, please contact
United States Attorney Donald W. Washington at 337-262-6618 or First Assistant
U.S. Attorney Bill Flanagan at 318-676-3600.
This and other press releases issued by
the United States Attorney's Office for the Western District of Louisiana
can be found at our website at www.usdoj.gov/usao/law.
Top
Printable view
Share this page
Last Modified: 03/02/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov